                                                                         EMPLOYMENT AND

U.S. Department of Labor                                                 TRAINING
                                                                         ADMINISTRATION

                           Office of Inspector General—Office of Audit




                                                                         GEORGIA DEPARTMENT OF LABOR
                                                                         MISSED OPPORTUNITIES TO DETECT AND
D                                                                        RECOVER UNEMPLOYMENT INSURANCE
I
S
C
                                                                         OVERPAYMENTS
U
S
S
I
O
N

D
R
A
F
T




                                                                                             Date Issued:   March 15, 2013
                                                                                          Report Number:    04-13-001-03-315
U.S. Department of Labor                                     March 2013
Office of Inspector General
Office of Audit                                              GEORGIA DEPARTMENT OF LABOR
                                                             MISSED OPPORTUNITIES TO DETECT AND
BRIEFLY…                                                     RECOVER UNEMPLOYMENT INSURANCE
                                                             OVERPAYMENTS
Highlights of Report Number 04-13-001-03-315, issued
to the Assistant Secretary for Employment and Training.      WHAT OIG FOUND

WHY READ THE REPORT                                          The OIG found that GDOL did not have adequate
                                                             controls and systems in place to detect and recover UI
The Unemployment Insurance (UI) program is designed          benefit overpayments. GDOL missed opportunities to
to provide benefits to individuals out of work, generally    detect and recover overpayments; and ETA could not
through no fault of their own, for periods between jobs.     ensure GDOL’s reported overpayment data were
The UI program is administered at the state level, but       accurate, or measure the effectiveness of GDOL’s
benefits are funded by both state and federal monies.        recovery activities.
State Workforce Agencies (SWA) are responsible for
designing controls to detect and recover UI benefit          Although the National Directory of New Hires
overpayments. The Georgia Department of Labor                cross-match process to detect overpayments has been
(GDOL) is one of 53 SWAs designated to administer            available to SWAs since 2008, GDOL did not implement
the UI program. Between October 1, 2008, and                 it until December 2011. Consequently, GDOL missed
March 31, 2011, GDOL paid $8 billion in federal and          opportunities to maximize overpayment detection.
state-funded UI benefits.
                                                             GDOL did not conduct all data validation for UI
In November 2009, the President issued Executive             detection and recovery data as required by ETA. While
Order 13520 – Reducing Improper Payments. Its                GDOL did submit Corrective Action Plans (CAP) to ETA
purpose was to reduce improper payments by                   to address its data validation deficiencies, the CAPs did
intensifying efforts to eliminate payment error, waste,      not include specific milestones, which hindered ETA’s
fraud, and abuse in the major programs administered          ability to monitor and track GDOL’s progress in taking
by the federal government, while continuing to ensure        corrective actions. This may have contributed to GDOL
these programs served and provided access to their           not making measurable improvements toward
intended beneficiaries.                                      correcting its data validation deficiencies

According to the Government Accountability Office, of        ETA did not define an acceptable level of performance
all federal programs, the U.S. Department of Labor UI        for measuring recovery of overpayments. As such, ETA
program had the fourth highest estimated improper            had no mechanism for evaluating the effectiveness of
payment amount for fiscal year 2011, with an estimated       GDOL’s recovery activities, including $14.9 million of
$13.7 billion in improper payments and an error rate of      $58.7 million (25 percent) in overpayments, and
12 percent. These improper payments were primarily           $343,000 of $2.24 million (15 percent) in Federal
the result of claimants continuing to claim benefits after   Additional Compensation overpayments.
returning to work (under-reported earnings) and other
eligibility issues.                                          WHAT OIG RECOMMENDED
WHY OIG CONDUCTED THE AUDIT                                  The OIG made five recommendations to the Assistant
                                                             Secretary for Employment and Training to improve
Our audit objective was to answer the following              ETA’s monitoring of overpayment recovery efforts and
question:                                                    GDOL’s detection and recovery of UI benefit
                                                             overpayments.
Did GDOL have adequate controls and systems in
place to detect and recover UI benefit overpayments?         The Assistant Secretary generally agreed with the
                                                             recommendations and stated that the agency has either
READ THE FULL REPORT                                         initiated or completed corrective actions to address all
                                                             five recommendations.
To view the report, including the scope, methodology,
and full agency response, go to: http://www.oig.dol.gov
/public/reports/oa/2013/04-13-001-03-315.pdf.
                                                             U.S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results in Brief .............................................................................................................. 2

Objective — Did GDOL have adequate controls and systems in place to detect
            and recover UI overpayments? .............................................................. 3
         GDOL did not timely implement all available tools to detect and recover
         overpayments. ...................................................................................................... 3

         Finding 1 — GDOL did not timely implement the NDNH cross-match
                     process for detecting and recovering overpayments. ...................... 3
         Finding 2 — GDOL did not conduct all required data validation of detection
                     and recovery data. .......................................................................... 4
         Finding 3 — GDOL CAPs did not contain specific milestones to ensure
                     resolution of data validation deficiencies. ........................................ 6
         Finding 4 — ETA did not have a defined acceptable level of performance
                     for overpayment recovery. .............................................................. 6
         ETA has taken steps to improve the detection and recovery of
                     overpayments.................................................................................. 8
         GDOL has taken steps to strengthen its detection and recovery of
                     overpayments.................................................................................. 8

Recommendations ........................................................................................................ 9

Appendices
         Appendix A Background ..................................................................................... 13
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 15
         Appendix C Acronyms and Abbreviations .......................................................... 19
         Appendix D Definitions ....................................................................................... 21
         Appendix E ETA Response to Draft Report ........................................................ 23
         Appendix F Acknowledgements ......................................................................... 29




                                                                                                GDOL UI Overpayments
                                                                                             Report No 04-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                         GDOL UI Overpayments
                                      Report No 04-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 15, 2013

                        Assistant Inspector General’s Report

Jane Oates
Assistant Secretary
 for Employment and Training
Room S2307
200 Constitution Avenue, N.W.
Washington, DC 20210

The Unemployment Insurance (UI) program is designed to provide benefits to
individuals out of work. In order to be eligible for benefits, jobless workers must show
they were separated from work through no fault of their own, met minimum length of
time and wage requirements before they were separated, and were available for work.
The UI program is administered at the state level, but benefits are funded by both state
and federal monies. State Workforce Agencies (SWA) are responsible for designing
controls to detect and recover UI benefit overpayments (overpayments). The Georgia
Department of Labor (GDOL) is one of 53 SWAs designated to administer the UI
program. Between October 1, 2008, and March 31, 2011, the GDOL UI program paid
$8 billion in state and federally-funded benefits to unemployed workers.

We performed the audit to answer the following question:

   Did GDOL have adequate controls and systems in place to detect and recover UI
   benefit overpayments?

Our audit focused on $58.7 million in overpayments that GDOL detected between
October 1, 2008, and March 31, 2011; and $14.9 million it recovered between
October 1, 2008, and October 23, 2011.

We analyzed 60,736 overpayments and identified methods GDOL used to detect and
recover overpayments, interviewed key personnel, and conducted walkthroughs of the
units responsible for these activities. We also examined GDOL’s processes for
validating data used to prepare Overpayment Detection and Recovery report (ETA 227),
and the Employment and Training Administration’s (ETA) monitoring of these activities.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our

                                                                           GDOL UI Overpayments
                                         1                             Report No. 04-13-001-03-315
                                                      U.S. Department of Labor – Office of Inspector General


audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

GDOL did not have adequate controls and systems in place to detect and recover UI
benefit overpayments. We found GDOL did not timely implement cross-matching
procedures with the National Directory of New Hires (NDNH) database. Additionally,
GDOL did not ensure the accuracy of data it used to report overpayment activities on
the ETA 227, as GDOL did not conduct or submit all data validation results to ETA.
While GDOL did submit Corrective Action Plans (CAP) to ETA to address data
validation deficiencies, the CAPs did not include specific milestones. Finally, ETA did
not define an acceptable level of performance for measuring recovery activities. As a
result, GDOL missed opportunities to detect and recover overpayments; and ETA could
not ensure GDOL’s reported overpayment data were accurate, or measure the
effectiveness of GDOL’s recovery activities.

Although the NDNH cross-match process to detect overpayments has been available to
SWAs since 2008, GDOL did not implement it until December 2011. GDOL contended
that federally-funded programs necessitated that it prioritize limited information
technology programming resources to ensure claimants received benefits instead of
performing cross matching with NDNH. As a result of delaying its implementation of
NDNH cross matching, GDOL missed opportunities to maximize overpayment
detection.

GDOL did not conduct all data validation for UI detection and recovery data as specified
in ETA Handbook 361. GDOL’s failure to validate this data required it to include CAPs in
its State Quality Service Plan (SQSP) in accordance with Employment and Training
(ET) Handbook 336. However, the CAPs GDOL submitted did not provide measurable
milestones, hindering ETA’s ability to monitor and track GDOL’s progress.

ETA did not define an acceptable level of performance for measuring recovery of
overpayments. As such, ETA had no mechanism for evaluating the effectiveness of
GDOL’s recovery activities — $14.9 million of $58.7 million (25 percent) in
overpayments and $343,000 of $2.24 million (15 percent) in Federal Additional
Compensation (FAC) overpayments. 1

Since the end of our fieldwork, GDOL continued to improve its UI detection and
recovery activities by implementing the Separation Information Data Exchange System
(SIDES), participating in the Treasury Offset Program (TOP), and implementing
additional controls for granting waivers of overpayments.



1
  FAC amounts were established for recovery in June 2010 and are included in GDOL’s overall detection and
recovery amounts.

                                                                                     GDOL UI Overpayments
                                                    2                            Report No. 04-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General


We recommended the Assistant Secretary for Employment and Training ensure GDOL
has implemented NDNH cross matching; GDOL conducts data validation of
overpayment data; GDOL submits CAPs that contain sufficient, detailed milestones;
ETA regional reviewers ensure CAPs meet requirements before accepting them; and
ETA defines an acceptable level of performance for measuring the effectiveness of
overpayment recovery efforts.

The Assistant Secretary generally agreed with the recommendations and stated that the
agency has either already addressed or has begun addressing each finding and
recommendation in the report. ETA’s response is included in its entirety in Appendix E.


RESULTS AND FINDINGS

Objective — Did GDOL have adequate controls and systems in place to detect
            and recover UI overpayments?

      GDOL did not timely implement all available tools to detect and recover
      overpayments.

GDOL did not have adequate controls and systems in place to detect and recover UI
benefit overpayments, nor could GDOL ensure the accuracy of the data it used to report
on overpayment activities. We found GDOL did not timely implement one of the most
effective overpayment detection tools available, conduct and submit to ETA all results of
data validation for UI detection and recovery activities, and submit to ETA CAPs with
specific milestones to address deficiencies in conducting data validation. Additionally,
ETA did not have a defined acceptable level of performance to measure the
effectiveness of overpayment recovery activities.


Finding 1 — GDOL did not timely implement the NDNH cross-match process for
            detecting and recovering overpayments.

GDOL did not implement the NDNH cross-match process to detect overpayments —
available to SWAs as early as 2008 — until December 2011, after our audit period.
According to GDOL, an increased UI program workload and computer programming
requirements to process federally-funded UI programs delayed its implementation of
NDNH for identifying potential overpayments. GDOL stated that ensuring claimants
received benefits took precedence over NDNH programming for detecting
overpayments and it allocated resources accordingly.

The NDNH database contained new-hire reports it received directly from federal civilian
and military employers, as well as new-hire reports that private employers submitted to
their State Directory of New Hires (SDNH) database. During our audit period, GDOL
used SDNH, but not NDNH, to conduct new-hire cross matches to identify potential
overpayments. Because NDNH would have provided GDOL access to a wider universe


                                                                       GDOL UI Overpayments
                                         3                         Report No. 04-13-001-03-315
                                                         U.S. Department of Labor – Office of Inspector General


of new-hire information (i.e., multi-state, federal civilian and military employers) than
SDNH, GDOL missed opportunities to maximize its overpayment detections.

Unemployment Insurance Program Letter (UIPL) 22-06 cited a 2005 pilot study that
indicated NDNH was one of the most effective tools SWAs had to detect overpayments
caused by unreported or under-reported earnings. The study identified the following
advantages of using NDNH:

      •    More comprehensive than the SDNH – An estimated 40 percent of new hires are
           reported by multi-state employers to a state other than the one where the new
           hire works; and NDNH contains information about federal civilian and military
           hires which is not contained in any other database.

      •    Better targeting of investigations than the benefit-wage cross match – New-hire
           reports include the "date of hire," which helps eliminate false-positive "hits."

ETA mandated that SWAs implement cross matching with NDNH to identify UI
overpayments by December 2011. Prior to that time, ETA actively encouraged the
SWAs’ use of NDNH.

Congress passed several laws extending or authorizing various federally-funded
programs. GDOL officials told us that computer modifications were necessary in order
to administer these programs. GDOL officials further stated they decided to allocate
their limited resources to ensure claimants received benefits instead of implementing
NDNH. GDOL’s delay in implementing NDNH until December 2011 resulted in missed
opportunities to maximize detection of overpayments caused by unreported earnings.


Finding 2 — GDOL did not conduct all required data validation of detection and
            recovery data.

For fiscal years (FY) 2010 through 2012, GDOL did not always conduct and submit to
ETA the results of data validation for established overpayments and overpayment
recovery data that it used to prepare the ETA 227. SWAs used ETA software to ensure
their overpayment and recovery results were valid. Also, SWAs used the data validation
process to verify the accuracy of the overpayment and recovery information reported to
ETA by reconstructing the count of transactions during a specific period for each report
item to be validated. The data validation process identifies reporting system 2 errors and
human errors. Items pass the validation process when the accuracy of both reporting
systems and data are considered verified.

ETA Handbook 361 – UI Data Validation requires SWAs to validate reported data every
third year, except for data elements used to calculate Government Performance and
Results Act measures, which must be validated annually. Items that do not pass
validation must be revalidated the following year.
2
    Reporting systems are computer programs that create the federal reports.

                                                                                      GDOL UI Overpayments
                                                        4                         Report No. 04-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General




The outcome of GDOL’s data validation for established overpayments and overpayment
reconciliation activities during our audit period is presented in Table 1 below.

                                                                         Table 1
            Data Validation Results
                                                       Type of Data
                                                               Overpayment
                         Measurement           Established     Reconciliation
                FY            Period          Overpayments       Activities
                        April 1, 2009 –
               2010     March 31, 2010     Not Conducted        Not Conducted

                        April 1, 2010 –
               2011     March 31, 2011     Not Conducted        Not Conducted

                        April 1, 2011 –
               2012     March 31, 2012     Passed               Not Conducted


GDOL officials stated they encountered various barriers that prevented them from
completing the data validation requirements, including competing demands on the
information technology resources that were needed to develop required data extract
files. GDOL officials made the administrative decision to place a higher priority on using
available information technology resources to ensure claimants received their benefits.

In November 2012, GDOL submitted and passed data validation for overpayment
reconciliation activities for the reporting period July 1, 2012, through
September 30, 2012. Despite this accomplishment, GDOL needs to ensure its controls
are sufficient to conduct and pass data validation in future years.

As a result of GDOL not conducting all data validation processes for established
overpayments and overpayment reconciliation activities, GDOL or ETA could not verify
the accuracy of data in the ETA 227. The ETA 227 is used by ETA and SWAs to
monitor trust fund activities. Data are provided for the establishment of overpayments,
recoveries of overpayments, criminal and civil actions involving overpayments obtained
fraudulently, and an aging schedule of outstanding benefit overpayment accounts.
SWAs that fail data validation must address these deficiencies in their SQSP by
preparing CAPs.

Because the ETA 227’s users include SWAs, ETA, Congress, governmental agencies,
the press, and the general public, it is imperative that ETA ensures the data contained
in the ETA 227 is accurate.




                                                                        GDOL UI Overpayments
                                          5                         Report No. 04-13-001-03-315
                                                     U.S. Department of Labor – Office of Inspector General


Finding 3 — GDOL CAPs did not contain specific milestones to ensure resolution
            of data validation deficiencies.

GDOL was required to include CAPs in its SQSP because data validation processes for
established overpayments and overpayment reconciliation activities were not
conducted. However, the CAPs submitted by GDOL to ETA did not contain specific
milestones (key actions and improvement activities) as required by ETA’s guidance.

ET Handbook 336 requires CAPs to include concise milestones, identifying specific key
actions or improvement activities and their anticipated completion dates. Field
Memorandum No. 1-09 requires the ETA regional reviewer to ensure CAP milestones
are measurable and represent concrete operational steps that can be used to track and
assess progress during the plan year.

GDOL officials stated they believed the CAPs submitted to ETA complied with ET
Handbook 336 because ETA accepted them. ETA officials agreed the CAPs were
accepted and indicated an assessment of its review and acceptance procedures may
be warranted.

The lack of specific milestones to address data validation deficiencies impaired ETA’s
ability to assess GDOL’s progress or monitor its corrective actions. In addition, this may
have contributed to GDOL not making measurable improvements toward correcting its
data validation deficiencies.


Finding 4 — ETA did not have a defined acceptable level of performance for
            overpayment recovery.

ETA did not have a defined acceptable level of performance for overpayment recovery,
which limited its ability to appropriately measure the effectiveness of GDOL’s recovery
activities. We analyzed 60,736 overpayments totaling $58.7 million over a 3-year period
ending October 2011, and found that GDOL collected $14.9 million in overpayments, a
25 percent recovery rate. Our separate analysis of 14,629 FAC overpayments totaling
$2.24 million detected in June 2010 (FAC 2010) 3 found that GDOL recovered
approximately $343,000, or 15 percent. Because Georgia’s statute of limitation for
recovering overpayments extends up to 4 years — barring any court actions —
opportunities exist for GDOL to make additional recoveries of the overpayments we
analyzed. As illustrated in the tables below, GDOL used three primary methods for
overpayment recovery.




3
    GDOL’s 60,736 overpayments include the FAC overpayments separately analyzed.

                                                                                   GDOL UI Overpayments
                                                    6                          Report No. 04-13-001-03-315
                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                Table 2
         Recovery Activity – Total Overpayments
                                                                    Type of                 Percent of
                                                                  Recovery                   Recovery
         Cash 4                                                  $5,453,736                   36.48 %
         Benefit Offsets                                          5,691,775                   38.07 %
         State Income Tax Refund Intercepts                       3,805,807                   25.45 %
         Total Funds Recovered                                  $14,951,318                  100.00 %

         Total Amount Detected                                  $58,779,538
         Recovery Rate 5                                              25.44 %


                                                                                                Table 3


         Recovery Activity – FAC 2010 Cases
                                                                    Type of                 Percent of
                                                                   Recovery                 Recovery 6
         Cash                                                      $133,894                   39.02 %
         Benefit Offsets                                            166,146                   48.43 %
         State Income Tax Refund Intercepts                          43,063                   12.55 %
         Total Funds Recovered                                     $343,103                  100.00 %

         Total Amount Detected                                    $2,239,175
         Recovery Rate 7                                              15.32 %


In order to evaluate UI recovery effectiveness, ETA needs to establish quantifiable
targets (acceptable levels of performance) and a uniform reporting system. In the past,
ETA attempted to establish a standard acceptable level of performance for SWAs, but
discontinued the standard because of dissimilarities among the SWAs. Without
establishing an acceptable level of performance, ETA provides GDOL with neither a
level of expectation regarding its performance in overpayment recoveries nor any
incentive to improve its current recovery rates.

Performance measurements indicate whether sufficient recovery is being accomplished
and whether desired results are being achieved. The measures help SWAs by providing
a gauge on how resources and efforts should be allocated to ensure effectiveness.
More importantly, performance measurements are a key control for measuring how well

4
  Cash refers to checks and money orders, not coin and currency.
5
  The recovery rate was calculated by dividing total funds recovered by total amount detected
($14,951,318/$58,779,538).
6
  Percentages are rounded.
7
  The recovery rate was calculated by dividing total funds recovered by total amount detected ($343,103/$2,239,175).

                                                                                       GDOL UI Overpayments
                                                      7                            Report No. 04-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


SWAs are doing in recovering overpayments. Therefore, ETA needs to define
quantifiable targets in order to evaluate UI recovery effectiveness.


ETA has taken steps to improve the detection and recovery of overpayments.

ETA has taken steps to reduce overpayments and increase recovery of overpayments.
As detailed below, ETA revised its monitoring of data validation to ensure SWAs were in
compliance with required procedures; issued guidance to SWAs, and if requested,
provided SWAs with supplemental funding to develop state-specific strategies to
improve the prevention, detection, and recovery of overpayments.

In February 2012, ETA issued the UI Data Validation Monitoring Guide (ET Handbook
412), which outlined a monitoring program for ETA regional staff to follow. It expanded
the scope of ETA oversight by focusing on data validation results that have passed.
According to the handbook, ETA anticipates this monitoring process will ensure SWAs
that reported passing data validation results are following the prescribed methodology
and that their reported results are valid.

In May 2012, ETA issued UIPL No. 18-12, which announced the availability of
supplemental funds for eight Core Integrity Activities designed to assist SWAs’ efforts to
reduce their improper payment rates. The eight activities addressed prevention of
overpayments, tools to enhance the detection and recovery of overpayments, and
strategies to increase awareness of claimants’ and employers’ responsibilities (see
Appendix A for details).

In August 2012, ETA issued UIPL No. 29-12, which provided additional guidance to
SWAs to improve the detection and recovery of overpayments in federally-funded
programs, specifically the EUC and EB programs. This guidance suggested that SWAs
retroactively conduct cross matches using NDNH and other detection tools, and
encouraged SWAs to take advantage of TOP. To support this initiative, ETA developed
a performance ratio to measure the extent to which each SWA detected and established
EUC and EB overpayments. Although no benchmarks are associated with the
performance ratio, management can use the information to access the progress of each
SWA in their detection of EUC and EB overpayments.


GDOL has taken steps to strengthen its detection and recovery of overpayments.

GDOL has implemented some of ETA’s strategies to improve the prevention, detection,
and recovery of overpayments. For example, since February 2011, GDOL participated
in an ETA pilot program to prevent overpayments using SIDES. Since the end of our
fieldwork, GDOL started participating in TOP to improve recovery. In addition, GDOL
issued a rule change to more effectively manage granting overpayment waivers.




                                                                        GDOL UI Overpayments
                                          8                         Report No. 04-13-001-03-315
                                                      U.S. Department of Labor – Office of Inspector General


SIDES provide a nationally-standardized format in which employers and third-party
administrators (TPA)8 can receive and easily respond to SWAs’ requests for UI
separation information. It also allows SWAs to electronically share information across
state lines with other SWAs, multi-state employers, or TPAs. SIDES provides claims
examiners with more timely and accurate separation information used to determine
claimants’ eligibility to receive UI benefits helping to prevent improper payments to
individuals not eligible for benefits.

In September 2011, GDOL submitted to ETA a Supplemental Budget Request for
funding to participate in TOP. TOP is a centralized offset program, administered by the
Treasury Department with authority to intercept federal income tax refunds to recover
overpayments when a claimant fails to report earnings. GDOL began submitting eligible
debts for TOP collection in June 2012. As of December 2012, TOP recovered $159,724
by intercepting 225 federal income tax refunds on behalf of GDOL.

On February 12, 2012, GDOL initiated rule changes pertaining to overpayment waivers
to strengthen GDOL’s management of overpayments by: a) reducing the time to request
a waiver from 90 to 15 days; b) requiring individuals to demonstrate that repayment
would result in a financial hardship and they have no reasonable prospect of future
employment nor future ability to repay; c) eliminating the right to appeal the denial of a
request for waiver; and d) eliminating the granting of waivers based on the
recommendation of an administrative hearing officer or board of review. Once a waiver
is granted, collection efforts must stop. Controlling the granting of overpayment waivers
allows GDOL to continue collection efforts on more cases until the statute of limitation is
reached.

The initiatives ETA and GDOL have undertaken reflect their efforts to eliminate payment
error, waste, fraud, and abuse in the UI program, while also continuing to ensure that
they serve intended beneficiaries. Although it is impossible to completely eliminate
improper payments, these strategies are a major step to reducing overpayments. And
while we recognize the initiatives ETA and GDOL have undertaken, additional steps are
necessary for ETA and GDOL to take to fully maximize reductions in overpayments.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training ensure:

    1. GDOL has implemented NDNH cross matching for detecting overpayments.

    2. GDOL conducts data validation of overpayment data in accordance with ETA
       Handbook 361 requirements.



8
 Third-party administrators are companies that provide information and management services for employers in the
area of unemployment insurance.

                                                                                     GDOL UI Overpayments
                                                     9                           Report No. 04-13-001-03-315
                                        U.S. Department of Labor – Office of Inspector General


   3. GDOL submits CAPs that contain sufficient, detailed milestones to track and
      access progress in correcting identified deficiencies in accordance with ET
      Handbook 336 requirements.

   4. ETA regional reviewers ensure CAPs meet the requirements of ET Handbook
      336 before accepting them.

   5. ETA develops an acceptable level of performance for recovery of overpayments.


We appreciate the cooperation and courtesies that ETA and GDOL personnel extended
to the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                     GDOL UI Overpayments
                                        10                       Report No. 04-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




Appendices




                                          GDOL UI Overpayments
             11                       Report No. 04-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                          GDOL UI Overpayments
            12                        Report No. 04-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

UI Program

The UI program is designed to provide benefits to individuals out of work. In order to be
eligible for benefits, jobless workers must show they were separated from work through
no fault of their own, met minimum length of time and wage requirements before they
were separated, and were available for work. The UI program is administered at the
state level, but benefits are funded by both state and federal monies. SWAs are
responsible for designing controls to detect and recover UI overpayments. GDOL is one
of 53 SWAs designated to administer the UI program. Between October 1, 2008, and
March 31, 2011, the GDOL UI program paid $8 billion in state and federally-funded
benefits to unemployed workers.

The primary permanent UI programs consist of states’ basic UI program and federal
programs for civilian employees and ex-servicemen. In recent years, Congress has
authorized additional federally-funded UI programs, including Emergency
Unemployment Compensation, Extended Benefits, and FAC. FAC was authorized
under the American Recovery and Reinvestment Act of 2009 to pay eligible claimants
an additional $25 per week beginning March 2009, until December 7, 2010.

Reducing Improper Payments

In November 2009, the President issued Executive Order 13520 – Reducing Improper
Payments. The purpose of this order was to reduce improper payments by intensifying
efforts to eliminate payment error, waste, fraud, and abuse in the major programs
administered by the federal government, while continuing to ensure that federal
programs serve and provide access to their intended beneficiaries. On July 22, 2010,
the President signed into law the Improper Payments Elimination and Recovery Act of
2010, which requires agencies to periodically review all programs and activities that
they administer and identify those susceptible to significant improper payments.

According to the Government Accountability Office, of all federal programs, the DOL UI
program had the fourth highest estimated improper payment amount for FY 2011. DOL
estimated that the UI program had $13.7 billion in improper payments with an error rate
of 12 percent (amount of overpayments divided by total benefits paid). The primary
causes of the overpayments were due to claimants who continued to claim benefits
after they returned to work (under-reported earnings) and ineligibility issues.

DOL focused on these root causes by issuing UIPL No. 19-11, National Effort to
Reduce Improper Payments in the UI Program (issued on June 10, 2011). To combat
under-reported earnings, DOL required all SWAs to conduct NDNH cross matches,
effective December 2011. Untimely and incomplete job separation information was the
second leading cause of overpayments. To address this issue, the DOL worked
collaboratively with SWAs to develop SIDES. SIDES enables more rapid and accurate


                                                                       GDOL UI Overpayments
                                         13                        Report No. 04-13-001-03-315
                                            U.S. Department of Labor – Office of Inspector General


communications between SWAs and employers, electronically transmitting information
used to determine claimants’ eligibility to receive UI benefits.

In December 2010, the President signed the Claims Resolution Act of 2010 authorizing
the Treasury Department’s use of TOP to recover all UI overpayments resulting from
the claimant’s failure to report earnings, even if not due to fraud. The Trade Adjustment
Assistance Extension Act of 2011, enacted in October 2011, contains the following
three key provisions intended to reduce UI overpayments:

   •   Requiring SWAs to impose a monetary penalty on claimants whose fraudulent
       acts resulted in overpayments;
   •   Requiring employers to report the first day of earnings for new hires and report
       rehires to the NDNH; and
   •   Preventing an employer’s account from being relieved of charges if the actions of
       the employer led to an improper payment; potentially affecting the employer’s
       payroll tax rate.

ETA issued UIPL No. 18-12 in May 2012, which announced supplemental budget
request opportunities to fund eight Core Integrity Activities. The impact of the following
four Core Integrity Activities have been discussed in this report:

   •   Up to $250,000 to implement NDNH cross matches using recommended
       operating procedures;
   •   Up to $500,000 to implement SIDES and up to $100,000 to market SIDES to
       encourage employers’ participation;
   •   Up to $100,000 to implement a messaging campaign designed to increase
       claimants’ awareness of their responsibility to report wages while receiving
       benefits; improving claimants’ understanding of work search requirements for
       continued UI eligibility; and improving employers’ awareness of their
       responsibility to provide separation information timely and accurately; and
   •   Up to $400,000 to implement TOP.

These activities helped SWAs develop their own state-specific strategies to reduce their
improper payment rates. ETA also offered SWAs between $1.85 million to $2.2 million
per SWA for Incentive Integrity Activities, contingent on the SWA implementing or
agreeing to implement all eight Core Integrity Activities by ETA’s deadline. ETA
identified several incentive activities that qualified for the additional funds, including:

   •   Hiring staff to eliminate backlogs of pending appeals or Benefit Payment Control
       unit activities and obtaining contractor support to explain reporting wage
       requirements to claimants identified as “hits” during cross matches; and
   •   Enhancing NDNH operating procedures by requiring claimants identified as “hits”
       during cross matches to contact SWA claims representatives when filing for their
       next weekly benefit payment.



                                                                         GDOL UI Overpayments
                                           14                        Report No. 04-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

     Did GDOL have adequate controls and systems in place to detect and
     recover UI benefit overpayments?

Scope

The audit covered the detection of overpayments established by GDOL between
October 1, 2008, and March 31, 2011; and its recovery activity between
October 1, 2008, and October 23, 2011. Our audit work was performed at GDOL’s main
office for UI activities located in Atlanta, GA; ETA’s National Office in Washington, DC;
and its Regional Office in Atlanta, GA. We also met with auditors from the State of
Georgia Department of Audits and Accounts, located in Atlanta, GA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To answer our audit objective, we identified methods used by GDOL to detect and
recover overpayments by interviewing key GDOL personnel and conducting
walkthroughs of the units responsible for these activities. We also interviewed personnel
who have a responsibility for the UI program from the ETA National Office of
Unemployment Insurance (OUI) and ETA’s Atlanta Regional Office.

We researched available methods for detecting and recovering overpayments by
reviewing ETA Handbooks and UIPLs OUI issued that provided guidance to SWAs. We
also reviewed applicable federal and state laws, executive orders, and Congressional
hearings; prior audit reports; government websites; and news reports. We compared the
available methods used to detect and recover overpayments against the methods used
by GDOL.

GDOL provided in a “Database Report” a universe of 63,896 overpayments it had
established during the audit period. Within this universe, we identified a subgroup of
14,874 FAC overpayments that GDOL had detected between March 2009 and




                                                                        GDOL UI Overpayments
                                          15                        Report No. 04-13-001-03-315
                                                        U.S. Department of Labor – Office of Inspector General


June 2010. We removed rescinded cases9 and cases with ending balance variances10
from both the universe (see Table 4) and from the FAC 2010 cases (see Table 5),
reducing the universe to 60,736, and 14,629 respectively.

                                                                                                            Table 4
Database Report – Adjusted Overpayment Amounts Used in Analyses
                                                Number of         Beginning
                                                   Cases            Balance
Original Amounts                                   63,896       $62,954,533
Less: Rescinded Cases                                2,558        3,456,760
Less: Cases with Variance in Ending Balances           602          718,235
Adjusted Amounts                                   60,736       $58,779,538


Using the adjusted database of 60,736 cases with beginning balance totaling
$58,779,538, we calculated the overall recovery rate from the $14,951,318 recovered.
We further analyzed the recovery rates and funds recovered based on the cause of the
overpayment and method used to detect the overpayment. We also analyzed the
adjusted database based on whether the case was fraud or non-fraud; funded by
federal or non-federal funds; and when the case was established.

Based on the analyses, we found that an unusually high number of cases were
established in June 2010. We determined, through inquiry with GDOL, that the high
volume was due to FAC 2010 cases established in the computer system in June 2010.
However, through review of available documents and sampled FAC 2010 cases, we
determined that the FAC 2010 cases might have been detected as early as April 2009.
We analyzed FAC 2010 to determine its impact on recovery activities. Using the
adjusted FAC 2010 population of 14,629 cases with beginning balance totaling
$2,239,175 (see Table 5); we determined the amount collected during our audit period
and calculated the overall recovery rate.

                                                                                                            Table 5
FAC 2010 Cases – Adjusted Overpayment Amounts Used in Analyses
                                               Number of        Beginning
                                                   Cases          Balance
Original Amounts                                  14,874       $2,290,000
Less: Rescinded Cases                                 229          47,150
Less: Cases with Variance in Ending Balances           16           3,675
Adjusted Amounts                                  14,629       $2,239,175


9
  If a case was incorrectly established (e.g., entered with the wrong social security number), then it must be removed
or rescinded. Including rescinded cases in the analysis of the database or of the FAC 2010 cases would overstate
the beginning balance, and therefore, understate the recovery rates.
10
   When comparing the ending balance as reported in the Database Report against the ending balance we had
calculated, we identified 602 cases with ending balance variances. The beginning balance of these cases totaled
$718,235. Including these cases in the analysis of the database cases or of the FAC 2010 cases would overstate the
beginning balance, and therefore, understate the recovery rates.

                                                                                         GDOL UI Overpayments
                                                       16                            Report No. 04-13-001-03-315
                                         U.S. Department of Labor – Office of Inspector General


We examined GDOL’s processes for validating data used to prepare ETA 227. Our
focus was on validation of data for overpayments established, overpayment
reconciliation activities, and age of overpayments submitted by GDOL for reporting
periods from FYs 2010 through 2012. We requested validation results from GDOL and
discussed the validation process with GDOL and ETA. We identified the requirements
for validating and submitting results by researching the Data Validation Handbook –
ETA Handbook 361. We compared the results GDOL submitted against ETA Handbook
361 requirements, identified discrepancies, and researched their cause(s).

We interviewed GDOL and ETA to gain an understanding of how ETA monitored UI
detection and recovery activities using the SQSP. We obtained from ETA SQSP
notification letters for FY 2010 through FY 2012. Because these letters directed GDOL
to include CAPs regarding submitted data validation results, we identified the
requirements for acceptable CAPs by researching the SQSP Handbook – ET Handbook
336, and compared the CAPs GDOL submitted against these requirements to
determine if GDOL submitted acceptable CAPs.

Criteria

   •   ET Handbook No. 336: 18th Edition, UI SQSP, Planning and Reporting
       Guidelines (December 2009)

   •   UIPL No. 19-08: Call Memo for FY09 UI SQSP (instructions for preparations)
       (May 2008)

   •   UIPL No. 25-09: Call Memo for FY10 UI SQSP (instructions for preparations)
       (June 2009)

   •   UIPL No. 23-10: Planning Guidance for FY11 UI SQSP (instructions for
       preparations) (April 2010)

   •   ETA Handbook 361: UI Data Validation Handbook (November 2009)

   •   ET Handbook No. 402, 5th Edition: UI Reports User Manual -- Web-based
       (May 2009)

   •   ET Handbook No. 412: UI Data Validation Monitoring Guide (February 2012)

   •   UI Reports Handbook No. 401: Section IV-3 – ETA 227 Overpayment Detection
       and Recovery Activities (April 2007)

   •   UIPL No. 22-06: National Directory of New Hires – Use for UI Program Integrity
       (June 2006)

   •   UIPL No. 02-12: Unemployment Compensation Program Integrity – Trade
       Adjustment Assistance Extension Act of 2011 amendments (December 2011)

                                                                      GDOL UI Overpayments
                                        17                        Report No. 04-13-001-03-315
                                        U.S. Department of Labor – Office of Inspector General




•   UIPL No. 19-11: National Effort to Reduce Improper Payments in the UI Program
    (June 2011)

•   UIPL No. 18-12: UI Supplemental Funding Opportunity for Program Integrity,
    Performance, Systems Improvements (May 2012)

•   UIPL No. 29-12: Improving Overpayment Detection and Recovery Efforts Related
    to Emergency Unemployment Compensation, Extended Benefits, and Federal
    Additional Compensation (August 2012)

•   Rules of the Georgia Department of Labor, 300-2-4.08: Waiver of Overpayments.
    Amended

•   GA Code, Section 9-3-25: Civil Practice, Limitation of Actions, Specific Periods of
    Limitation (2011)

•   Public Law 111–204: Improper Payments Elimination and Recovery Act of 2010

•   Claims Resolutions Act of 2010




                                                                     GDOL UI Overpayments
                                       18                        Report No. 04-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix C
Acronyms and Abbreviations


CAP           Corrective Action Plan

DOL           Department of Labor

ET            Employment and Training

ETA           Employment and Training Administration

FAC           Federal Additional Compensation

FY            Fiscal Year

GDOL          Georgia Department of Labor

NDNH          National Directory of New Hires

OIG           Office of Inspector General

OUI           Office of Unemployment Insurance

SDNH          State Directory of New Hires

SIDES         Separation Information Data Exchange System

SQSP          State Quality Service Plan

SSN           Social Security Number

SWA           State Workforce Agency

TOP           Treasury Offset Program

TPA           Third Party Administrator

UI            Unemployment Insurance

UIPL          Unemployment Insurance Program Letter




                                                                       GDOL UI Overpayments
                                       19                          Report No. 04-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                          GDOL UI Overpayments
            20                        Report No. 04-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix D
Definitions

Benefit Payment Control – UI staff responsible with protecting the UI Trust Fund by
preventing, discouraging, detecting, investigating, and recovering unemployment
insurance benefit overpayments.

Cash – Checks or money orders (GDOL does not accept actual cash or currency as
payment).

Claimant Benefit Offsets – Deductions of claimants’ weekly benefit payments that are
applied toward their overpayments. Georgia law allows up to 50 percent of a claimant’s
weekly benefit payment to be offset.

SDNH Database Cross Matches – The process of cross matching SSNs maintained in
the SDNH database against SSNs of claimants receiving benefits. SDNH’s databases
are operated by state departments. Non-governmental employers are required to submit
new-hire information which populates the SDNH database. SWAs investigate “hits” to
determine if a claimant received UI payments while working, creating a potential
overpayment due to unreported earnings.

State Income Tax Refund Intercepts – Amounts withheld from claimants’ state income
tax refunds by the state taxing authority and transferred to the SWA to repay benefit
overpayments. Intercepts only occur a maximum of three years on an overpayment.

SQSP – The principal vehicle an SWA uses to plan, record, and manage UI program
improvement efforts. The SQSP is intended to be a dynamic document that SWAs can
use as a management tool, not only to ensure strong program performance, but also to
guide key management decisions, such as where to focus resources. The SQSP is also
the grant document through which SWAs receive federal UI administrative funding.

TOP – A centralized offset program, administered by the Treasury Department with
authority to intercept federal income tax refunds to recover overpayments when the
claimant failed to report earnings.

TPA – An organization that provides information and management services for
employers in the area of UI. TPAs typically support clients by handling the transfer of
separation information required by SWAs when an employee of the client files for UI
benefits.

Waivers – Voluntary relinquishments of SWAs’ legal authority to recover overpayments.




                                                                        GDOL UI Overpayments
                                          21                        Report No. 04-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                          GDOL UI Overpayments
            22                        Report No. 04-13-001-03-315
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix E
ETA Response to Draft Report




                                                            GDOL UI Overpayments
                               23                       Report No. 04-13-001-03-315
U.S. Department of Labor – Office of Inspector General




                             GDOL UI Overpayments
24                       Report No. 04-13-001-03-315
U.S. Department of Labor – Office of Inspector General




                             GDOL UI Overpayments
25                       Report No. 04-13-001-03-315
U.S. Department of Labor – Office of Inspector General




                             GDOL UI Overpayments
26                       Report No. 04-13-001-03-315
U.S. Department of Labor – Office of Inspector General




                             GDOL UI Overpayments
27                       Report No. 04-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                          GDOL UI Overpayments
            28                        Report No. 04-13-001-03-315
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix F
Acknowledgements

Key contributors to this report were Anthony Grice, Dwight Gates, Laura Brockway,
Freddie Hall, Ron Larry, Lorenzo Thornton, Michael Roberts, Ann Marie Lawrence, and
Ajit Buttar.




                                                                     GDOL UI Overpayments
                                       29                        Report No. 04-13-001-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
